No.______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
MONWELL DWIGHT BOOTH,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ
of Certiorari contains 1,448 words, excluding the parts of the document that are
exempted by the Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted this 4th day of December, 2020.
/s/ Evangelo Arvanetes
EVANGELO ARVANETES
Assistant Federal Defender
Federal Defenders of Montana
2702 Montana Avenue, Suite 101
Billings, MT 59101
Telephone: (406) 259-2459
Counsel of Petitioner

